Review of the Medicaid Drug Rebate Program State of Michigan, Michigan Department of Community Health, Lansing, Michigan
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Medicaid Drug Rebate Program State of Michigan, Michigan Department of Community Health, Lansing,
Michigan," (A-05-03-00047)
September 19, 2003
Complete
Text of Report is available in PDF format
(159 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
OIG evaluated whether the Michigan Department of Community Health (Agency) had established adequate accountability and
internal controls over the State's Medicaid drug rebate program.  We determined that the Agency had not reconciled
the outstanding balance of drug rebate accounts receivable reported on the Centers for Medicare & Medicaid Services
(CMS) 64.9R report to the supporting books and records.  We recommended that the Agency develop policies, procedures,
and controls to ensure that the outstanding rebate amount reported to CMS is reconciled with supporting records.  The
Agency concurred with our finding and recommendation.